CERTIFICATE OF COMPLIANCE
Case No. 19-547
Caption: US Fish & Wildlife v. Sierra
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 7,969 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 3, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
August 3, 2020
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public

